TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Customer Account Data Engine Release
                      2.1 Generally Posted Tax Return
                           Information Accurately



                                         August 10, 2007

                              Reference Number: 2007-40-131




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 10, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Customer Account Data Engine Release 2.1
                              Generally Posted Tax Return Information Accurately
                              (Audit # 200740009)

 This report presents the results of our review to determine whether Customer Account Data
 Engine (CADE) Release 2.1 accurately posted tax return information, focusing on functionality
 not included in prior releases. We also evaluated certain CADE functions from prior releases
 that were not previously reviewed. This report is the third from a series of ongoing reviews1 of
 production releases of the CADE. These reviews are meant to determine if the deployed
 production versions of the CADE are working as designed.

 Impact on the Taxpayer
 The CADE is a new computer system designed to house the tax account information
 for taxpayers, and it will replace the current aging Master File system.2 The Release 2.1 version
 of the CADE generally posted accurate tax return information to taxpayer accounts. It is
 essential that the information posted to the CADE accurately reflects taxpayers’ tax return
 information because inaccurate information could affect subsequent activities or adjustments to
 taxpayer accounts.



 1
   Prior reports were Individual Income Tax Return Information Was Accurately and Timely Posted to the Customer
 Account Data Engine (Reference Number 2005-40-109, dated July 2005) and Individual Income Tax Return
 Information Was Successfully Posted to the Latest Release of the Customer Account Data Engine (Reference
 Number 2006-40-134, dated August 29, 2006).
 2
   The Internal Revenue Service database that stores various types of taxpayer account information. This database
 includes individual, business, and employee plans and exempt organizations data.
                               The Customer Account Data Engine Release 2.1
                             Generally Posted Tax Return Information Accurately




Synopsis
The CADE consists of current and planned databases and related applications that will
eventually replace the Internal Revenue Service (IRS) Master File system. It is a critical
building block in the IRS’ modernization program that will enable the development of
subsequent modernized systems to improve customer service and compliance. The CADE is
designed to post information to taxpayers’ accounts on a daily rather than weekly basis, which
will facilitate faster refunds to taxpayers and allow IRS employees to provide improved service
to taxpayers because the employees will have up-to-date, accurate account information available.
The CADE is being implemented in a series of biannual releases over several years. The first
CADE Release began posting the simplest individual tax returns3 in July 2004. The subject of
this review, Release 2.1, began posting returns in September 2006. It contained significant
additional functionality over prior releases, including the ability to post tax returns with the Head
of Household filing status and the most common tax schedules.
Approximately 16,000 tax returns were posted to Release 2.1 from September through
December 2006, the period that Release 2.1 was in effect. The volumes were extremely low
because the Release was implemented after completion of the IRS’ main filing season,4 which is
normal for a mid-year release. Overall, we determined tax return information was accepted and
generally posted accurately to CADE accounts. We reviewed returns filed with Itemized
Deductions (Schedule A), Interest and Ordinary Dividends (Schedule B), and Credit for the
Elderly or the Disabled (Schedule R) and/or the Head of Household filing status and determined
the majority of information from the returns was posted accurately. In addition, name and
address changes were posted accurately, and a condition related to long addresses being cut off
that we had previously reported was corrected. Finally, the process used to determine the audit
potential of returns posting to the CADE was adequately tested.
Although the majority of information was posted accurately, we did identify programming
problems affecting the accurate posting of Itemized Deductions, Adjusted Gross Income, and
Taxable Income amounts. Returns filed with a Schedule A had the itemized deduction amount
inflated when they were posted to the taxpayers’ accounts. We reported this issue to the IRS and
it immediately corrected the problem. There were 109 returns posted with inflated amounts
before the condition was corrected.
Also, in some specific circumstances incorrect Adjusted Gross Income and/or Taxable Income
amounts were posted to taxpayers’ accounts. When a return is corrected during processing, the
corrected figures should be posted to the account; however, the CADE posted the original,
uncorrected values. We reported this issue to the IRS and it promptly corrected the

3
    Income Tax Return for Single and Joint Filers With No Dependents (Form 1040EZ).
4
    The period from January through mid-April is when most individual income tax returns are filed.
                                                                                                      2
                         The Customer Account Data Engine Release 2.1
                       Generally Posted Tax Return Information Accurately



programming on February 2, 2007. Returns posted after this date were posted with accurate
information. In addition, the accounts with previously posted erroneous amounts were corrected
on June 14, 2007. There were approximately 49,000 returns posted to the CADE with erroneous
Adjusted Gross Income amounts and approximately 71,000 returns posted with erroneous
Taxable Income amounts during Calendar Year 2006.
In our opinion, these problems did not materially affect tax administration. Before the tax
returns were posted to the CADE, the processing of the tax returns had already been completed
using the correct information; therefore, the Itemized Deduction, Adjusted Gross Income, and
Taxable Income amounts did not affect the taxes due or refund amounts. However, as the CADE
is meant to be the repository of tax information, it must accurately reflect the information from
tax returns. Inaccurate information on the CADE could affect subsequent activities or
adjustments to taxpayer accounts.

Recommendations
We made no recommendations in this report because IRS management took appropriate
corrective actions to our findings during the course of the audit.

Response
In an email to us, IRS management concurred with the contents of an advance copy of the draft
report. Because the IRS concurred and the report had no recommendations, the IRS was not
required to and did not provide a formal response.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                3
                                 The Customer Account Data Engine Release 2.1
                               Generally Posted Tax Return Information Accurately




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Most Tax Return Information Was Posted Accurately to the
          Customer Account Data Engine Release 2.1 ................................................Page 5
          Itemized Deduction Information Was Erroneously Inflated
          During Posting ..............................................................................................Page 6
          Some Income Amounts Were Incorrectly Posted.........................................Page 7

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measures...............................................................Page 13
          Appendix V – Customer Account Data Engine Release Chart.....................Page 15
         The Customer Account Data Engine Release 2.1
       Generally Posted Tax Return Information Accurately




                 Abbreviations

CADE       Customer Account Data Engine
IRS        Internal Revenue Service
                             The Customer Account Data Engine Release 2.1
                           Generally Posted Tax Return Information Accurately




                                             Background

The Customer Account Data Engine (CADE) is the foundation for managing taxpayer accounts
in the Internal Revenue Service’s (IRS) modernization plan. The CADE consists of current and
planned databases and related applications that will eventually replace the IRS Master File
system.1 The CADE is a critical building block in the IRS’ modernization program that will
enable the development of subsequent modernized systems to improve customer service and
compliance. When fully operational, the CADE will house tax information for more than
200 million individual and business taxpayers.
Tax returns, both paper and electronic, are received by the IRS at various Submission Processing
sites across the country. At these sites, the tax return information is input to the IRS return
processing computer system, which validates certain taxpayer identifying information and
checks the tax returns for mathematical errors. After the tax return information has been
validated and errors have been corrected, the sites send the information to the IRS Computing
Centers2 to be posted to the taxpayers’ accounts. In the past, this account information was posted
to the Master File database, the official repository for all tax accounts.
The age and complexity of the Master File system cause inaccuracies and delays in providing
service to taxpayers. Updates to taxpayers’ account information on the Master File3 occur on a
weekly basis, and some updates require multiple weeks to complete. Because current data are
not available to IRS employees, taxpayers requesting help with their accounts may be given
outdated information. In contrast, the CADE is designed to post information to taxpayers’
accounts on a daily rather than a weekly basis. Taxpayers should receive refunds faster, and IRS
employees should be able to provide improved service to taxpayers because the employees will
have up-to-date, accurate account information available.
The first phase of the CADE, which is for individual taxpayer accounts, is being implemented in
a series of releases over several years. The simplest taxpayer accounts were moved to the CADE
first, and each successive release adds a more complex segment of taxpayer accounts. The first
CADE Release began posting the simplest individual tax returns4 in July 2004. Subsequent
releases have added new functionality and form types. The subject of this review, Release 2.1,
began posting returns in September 2006 and contained significant additions over the prior


1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
2
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
3
  For example, posting return information and payments.
4
  Income Tax Return for Single and Joint Filers With No Dependents (Form 1040EZ).
                                                                                                            Page 1
                             The Customer Account Data Engine Release 2.1
                           Generally Posted Tax Return Information Accurately



releases. In addition to the prior capability to post information from simple U.S. Individual
Income Tax Returns (Form 1040 and Form 1040A) and Income Tax Returns for Single and Joint
Filers With No Dependents (Form 1040EZ) with a filing status of single, it accepted tax returns
with Head of Household filing status and the most common tax schedules.5 Figure 1 outlines the
basic additions to Release 2.




5
 Itemized Deductions (Schedule A), Interest and Ordinary Dividends (Schedule B), and Credit for the Elderly or the
Disabled (Schedule R), along with their Form 1040A equivalents.
                                                                                                          Page 2
                             The Customer Account Data Engine Release 2.1
                           Generally Posted Tax Return Information Accurately



                           Figure 1: Functionality Added to Release 2

        Return                   Prior Releases                Release 2.1                 Release 2.2
     Characteristics                                           Implemented                 Implemented
                                                              September 2006                March 2007

 Tax Return Forms            Forms 1040EZ,               Same as prior releases      Form 1040EZ-T6
                             1040A, and 1040
 Filing Status               Single only                 Single, Head of             Single, Married Filing
                                                         Household without           Jointly, Married
                                                         dependents                  Filing Separately,
                                                                                     Head of Household
 Dependents                  No dependents               No dependents               Limited dependents
 Schedules                   No Schedules                Schedules A, B, & R         Schedules C, D, E, F,
                                                                                     & SE7
 Tax Credits                 Withholding Credit          Withholding Credit          Withholding Credit
                                                                                     Credit for Federal
                                                                                     Telephone Excise Tax
                                                                                     Paid
 Name Changes                No name changes             Limited name changes Same as Release 2.1




 Address Changes             Address changes on          Address changes on          Same as Release 2.1
                             return                      return
                                                         United States Postal
                                                         Service address
                                                         change updates
Source: CADE Release Content Master Plan dated October 18, 2005.




 6
  Request for Refund of Federal Telephone Excise Tax.
 7
  Profit or Loss From Business (Schedule C), Capital Gains and Losses (Schedule D), Supplemental Income and
 Loss (Schedule E), Profit or Loss From Farming (Schedule F), and Self-Employment Tax (Schedule SE).
                                                                                                       Page 3
                        The Customer Account Data Engine Release 2.1
                      Generally Posted Tax Return Information Accurately



We had originally planned to review and report on both Release 2.1 and Release 2.2; however,
implementation of Release 2.2 was delayed from January to March 2007, so the IRS could make
required performance improvements and complete filing season updates. Accordingly, we are
reporting only the results of our review of Release 2.1 at this time. We will issue a separate
report on Release 2.2 later this year.
This review was performed at the CADE Project Office in New Carrollton, Maryland, and at the
Fresno, California, Submission Processing Site during the period September 2006 through
March 2007. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                        Page 4
                            The Customer Account Data Engine Release 2.1
                          Generally Posted Tax Return Information Accurately




                                     Results of Review

Most Tax Return Information Was Posted Accurately to the Customer
Account Data Engine Release 2.1
The IRS successfully posted approximately 16,000 tax returns to the CADE and generated
approximately $6 million in refunds from September through December 2006, the period that
Release 2.1 was in effect. The volumes posted by Release 2.1 were extremely low because the
Release was implemented after completion of the IRS’ main filing season.8 Generally, the IRS
uses a biannual release approach – one release mid-year adding complex capabilities and another
release in January each year that includes filing season updates. Release 2.1 was a
mid-year release, which have much lower volumes. In comparison, there were more than
7.3 million returns posted by the previous CADE release in the first 8 months of Calendar
Year 2006 with refunds totaling about $3.4 billion.
Tax return information was accepted and generally posted accurately to CADE accounts. We
reviewed returns with a Schedule A, B, or R and/or the Head of Household filing status that were
posted to the CADE from September 3 through October 28, 2006.9 Release 2.1 accepted all
three types of individual tax returns (Forms 1040, 1040A, and 1040EZ), the three schedules
mentioned above (along with their 1040A equivalents), and the Head of Household filing status
for posting. We also verified the Adjusted Gross Income, Taxable Income, tax, withholding,
Earned Income Tax Credit, and refund amounts and determined that, generally, tax return
information posted to taxpayers’ accounts accurately.
The CADE Release 2.1 also included other functionality not directly related to the information
on a taxpayer’s account. One of these items was an expanded scoring process used to determine
the audit potential of the returns being posted. This process has always been performed by the
various releases of the CADE, but the addition of a new filing status and new schedules by
Release 2.1 created the need for the process to be revised to incorporate the new return
information.
Because the IRS tested this expanded process extensively, we validated its test methodology and
results rather than performing detailed testing of the process. Our validation showed the IRS


8
  The period from January through mid-April is when most individual income tax returns are filed.
9
  Because of the higher volume of returns with a Schedule A, we selected those returns for only 6 weeks
(September 3 through October 14, 2006). We reviewed all 132 returns with a Schedule A, all 38 returns with a
Schedule B, and all 8 returns with a Schedule R. We also reviewed all seven returns with a Head of Household
filing status.
                                                                                                         Page 5
                            The Customer Account Data Engine Release 2.1
                          Generally Posted Tax Return Information Accurately



testing methodology to be comprehensive. The test results appear to be accurate and support the
IRS’ conclusion that the expanded audit scoring process worked as intended.
The CADE Release 2.1 also included the ability to post limited name changes on the return, as
well as address changes. The address changes now accepted are those supplied to the IRS via a
computer file from the United States Postal Service. We evaluated 58 returns with name changes
posted to the CADE from September 5 through September 25, 2006, and determined that all
changes posted to the taxpayers’ accounts accurately. In addition, we reviewed a sample of
50 accounts with address changes and determined they also posted accurately.
We had previously reported a problem with long addresses being cut off when posted to a CADE
account.10 This problem caused addresses on accounts to be incorrect and some undeliverable
refunds to be issued. The IRS informed us it had corrected this problem, so we performed
additional work to verify whether the corrective actions were adequate. We identified
29 accounts with an address change between June 1 and September 27, 2006, with the conditions
that would have caused it to be cut off if the programming was not corrected. All of these
addresses posted accurately on the CADE.
Although the majority of tax information from the returns was posted accurately, we identified
programming problems affecting the accurate posting of Itemized Deductions, Adjusted Gross
Income, and Taxable Income amounts. The problems we identified were not widespread but
would have an adverse effect on the reliability of information on the CADE. IRS management
took immediate actions to correct the problems when we brought them to their attention.

Itemized Deduction Information Was Erroneously Inflated During
Posting
Each year millions of taxpayers choose to file a Schedule A to itemize their tax deductions rather
than using the standard deduction when filing their tax returns. We found the itemized deduction
amount posted to CADE accounts was erroneously inflated by two decimal places. For example,
an itemized deduction amount of $12,050 would have been posted as $1,205,000. We identified
109 returns11 that were posted to the CADE with an erroneous itemized deduction amount.
Because the returns had already been processed, the amounts posted to the CADE did not affect
the tax due or refund amounts. However, a taxpayer’s account must accurately reflect the
information from the tax return. Inaccurate information on the CADE could affect subsequent
activities or adjustments to taxpayer accounts.
The inflated itemized deduction amounts were the result of a programming error. The data from
the tax return were in dollars and cents format, but the field on the CADE database was

10
   Individual Income Tax Return Information Was Successfully Posted to the Latest Release of the Customer Account
Data Engine (Reference Number 2006-40-134, dated August 29, 2006).
11
   All of the returns posted with a Schedule A before the problem was identified and corrected.
                                                                                                         Page 6
                           The Customer Account Data Engine Release 2.1
                         Generally Posted Tax Return Information Accurately



formatted for dollars only, so the decimal point was dropped when the data were posted. This
problem was not identified during the testing of the programming.
Management Action: We reported this problem to the CADE project office, and it took
immediate corrective action. On October 10, 2006, it implemented programming changes to
correct the problem for future return postings, and we validated the accuracy of this corrective
action from our sample returns. In addition, the CADE project office issued an alert to
employees in the field to make them aware that some accounts were incorrect, and the testing
function updated its procedures to help prevent this problem in the future. Furthermore, the
CADE project office manually corrected the erroneous accounts we identified.
In our opinion, this problem did not materially affect tax administration. Although future returns
filed with a Schedule A would have been affected if this condition had not been identified and
corrected, the number of accounts actually affected was minimal.

Some Income Amounts Were Incorrectly Posted
In some specific circumstances, incorrect Adjusted Gross Income and/or Taxable Income
amounts were being posted to CADE accounts. Some return amounts are corrected during
processing and both the original and corrected values are stored by the return processing system.
When the processing of the return is complete, the data are sent to be posted to the taxpayer’s
account. If a value has been changed, the corrected amount should be posted to the account.
However, the CADE posted the original return amounts for Adjusted Gross Income and/or
Taxable Income instead of the corrected amount. This problem was also present in the previous
release of the CADE, and we identified approximately 49,000 returns posted to the CADE with
erroneous Adjusted Gross Income amounts and approximately 71,000 returns with erroneous
Taxable Income amounts during Calendar Year 2006.12 Future returns would also have been
affected if this condition was not corrected. Again, this information is on the account for
information only, and it does not affect the tax or refund amounts. However, the taxpayer’s
account should accurately reflect the information from the tax return. Inaccurate information on
the CADE could affect subsequent activities or adjustments to taxpayer accounts.
Management Action: We reported this problem to management in the CADE project office
on January 10, 2007, and they agreed the posted amounts were incorrect. The programming was
promptly corrected on February 2, 2007, and returns posted after this date were posted with
accurate information. In addition, the accounts with previously posted erroneous amounts were


12
 Almost 17,000 of these returns had both erroneous Adjusted Gross Income and Taxable Income amounts.
Accordingly, these returns are included in both totals.




                                                                                                       Page 7
                         The Customer Account Data Engine Release 2.1
                       Generally Posted Tax Return Information Accurately



corrected on June 14, 2007. Also, management stated they will verify that all other values taken
from the return processing system are the corrected amounts rather than the original amounts.




                                                                                          Page 8
                             The Customer Account Data Engine Release 2.1
                           Generally Posted Tax Return Information Accurately



                                                                                                 Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objective of this review was to determine whether CADE Release 2.1 accurately
posted tax return information, focusing on functionality not included in prior releases. We also
evaluated certain CADE functions from prior releases that were not previously reviewed. To
accomplish our objectives, we:
I.      Determined whether tax return information was accurately posted to the CADE.
        A. Obtained computer extracts of all returns posted to the CADE from September 3
           through October 28, 2006.
        B. Identified all returns from Step I.A. that had a Schedule A, B, or R1 attached or that
           claimed the Head of Household filing status.
        C. Researched the returns in Step I.B. using the Integrated Data Retrieval System2 and
           compared the posted account information with the original tax return information3 to
           determine whether the information was accurately posted. The return information
           verified was name, address, Adjusted Gross Income, Taxable Income, tax,
           withholding, Earned Income Tax Credit, and refund amounts.
II.     Determined whether name and address changes on CADE returns were posted accurately.
        A. Identified 58 returns posted to the CADE with a name change from September 3
           through September 23, 2006. We determined whether the name change was accurate
           based on the original return information taken from the Tax Return Database.
        B. Identified 50 CADE accounts with a systemic address change posted from
           September 5 through October 27, 2006. We determined whether the address change
           was accurate by using data from the United States Postal Service web site.
III.    Determined whether long street addresses were correctly posted to the CADE. This was
        to follow up on a previous audit finding.
        A. Identified and selected 29 accounts posted from June 1 through September 27, 2006,
           with a street address that could exceed the previous CADE size limitation.


1
  Itemized Deductions (Schedule A), Interest and Ordinary Dividends (Schedule B), and Credit for the Elderly or the
Disabled (Schedule R), along with their U.S. Individual Income Tax Return (Form 1040A) equivalents.
2
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
3
  This was obtained from the Tax Return Database, which contains the original (uncorrected) tax return information.
                                                                                                           Page 9
                       The Customer Account Data Engine Release 2.1
                     Generally Posted Tax Return Information Accurately



      B. Reviewed the address information stored by the CADE to determine whether
         addresses were still being cut off.
IV.   Determined whether the expanded audit scoring process used by the CADE was
      comparable to that used currently by the Individual Master File (the IRS database that
      maintains transactions or records of individual tax accounts).
      A. Discussed with the CADE Project Office the computer processes used to score and
         select potential returns for examination.
      B. Obtained and evaluated information on the testing of the CADE scoring process used
         to determine the audit potential of tax returns.




                                                                                        Page 10
                       The Customer Account Data Engine Release 2.1
                     Generally Posted Tax Return Information Accurately



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Richard J. Calderon, Audit Manager
Steven D. Stephens, Lead Auditor
Karen Fulte, Senior Auditor
Carola Gaylord, Senior Auditor
Arlene Feskanich, Information Technology Specialist




                                                                                   Page 11
                     The Customer Account Data Engine Release 2.1
                   Generally Posted Tax Return Information Accurately



                                                                     Appendix III

                       Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Information Officer OS:CIO
Deputy Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S:PI
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Senior Operations Advisor, Wage and Investment Division SE:W:S
       Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL




                                                                             Page 12
                         The Customer Account Data Engine Release 2.1
                       Generally Posted Tax Return Information Accurately



                                                                                Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our findings will have
on tax administration. These benefits will be incorporated into our Semiannual Report to
Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; 109 taxpayer accounts had incorrect itemized deduction
    information (see page 6).

Methodology Used to Measure the Reported Benefit:
We identified all 132 returns posted to the CADE with Itemized Deductions (Schedule A) from
September 3 through October 14, 2006. Shortly after receiving the initial returns for review, we
identified the inflated Itemized Deduction condition and informed the IRS. It quickly
implemented the programming change to correct this condition, and only 109 returns were
actually affected by the problem. Of the remaining 23 returns, 21 were posted after the
correction had been implemented and they were posted accurately. The remaining two returns
took the standard deduction instead of the itemized deduction.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; approximately 103,000 taxpayer accounts had incorrect
    Adjusted Gross Income and/or Taxable Income amounts (approximately 32,000 accounts had
    incorrect Adjusted Gross Income amounts, approximately 54,000 accounts had incorrect
    Taxable Income amounts, and approximately 17,000 accounts had both conditions)
    (see page 7).

Methodology Used to Measure the Reported Benefit:
After identifying this condition in our initial sample, we obtained a data extract from the
Treasury Inspector General for Tax Administration Data Center Warehouse to determine the
actual number of affected accounts. Discussions with the IRS indicated this condition had been
present since the start of the year (prior to Release 2.1 being deployed). Accordingly, we
identified, out of the approximately 7.3 million returns posted to the CADE during Calendar
Year 2006, all returns with Adjusted Gross Income or Taxable Income amounts that were
changed during return processing. For materiality purposes, we excluded all differences less
than $10, leaving us with approximately 32,000 accounts with incorrect Adjusted Gross Income

                                                                                         Page 13
                        The Customer Account Data Engine Release 2.1
                      Generally Posted Tax Return Information Accurately



amounts, approximately 54,000 accounts with incorrect Taxable Income amounts, and
approximately 17,000 accounts with both conditions. The net number of affected accounts
totaled 103,000.




                                                                                     Page 14
                                    The Customer Account Data Engine Release 2.1
                                  Generally Posted Tax Return Information Accurately



                                                                                                                Appendix V

              Customer Account Data Engine Release Chart

 Table 1 presents an overview of the development of the CADE. A legend for the tax forms and
 schedules is presented below Table 1. All tax forms and schedules listed in Table 1 are available
 at the IRS web site (IRS.gov).
                                   Table 1: Original CADE Release Schedule

               RELEASE         RELEASE        RELEASE         RELEASE        RELEASE        RELEASE        RELEASE          RELEASE
                1.1/1.2          1.3.1          1.3.2           2.1            2.2             3              4                5

  Tax          Form            Release        Release 1.3.1   Form           Release 2.1    All           All Form 1040     All
 Return        1040EZ;         1.1/1.2 plus   plus            1040EZ;        plus           Form 1040     family and        remaining
 Types         Single filing   address        Forms 1040      Form 1040      Form 1040      family and    supporting        individual
               status;         change         and 1040A       Schedules A,   Schedules C,   supporting    forms with an     tax returns
               refund or                      with no         B, and R;      D, E, F, and   forms         EIN;
               even-balance                   schedules       Form 1040A     SE without     without an    Forms 941,
               returns                                        Schedules 1    an EIN1 and    EIN;          940, 720;
                                                              and 3;         supporting     Form 1040A    payroll,
                                                              limited name   schedules      Schedule 2;   unemployment,
                                                              changes                       refund,       and excise
                                                                                            deceased      returns for
                                                                                            refund, or    Form 1040
                                                                                            fully paid    taxpayers;
                                                                                            returns       refund, fully
                                                                                                          paid,
                                                                                                          balance-due,
                                                                                                          and even-
                                                                                                          balance returns
     Filing    Single          Single         Single          Single;        Single;        All           All               All
     Status                                                   Head of        Married;
                                                              Household      Head of
                                                              without        Household,
                                                              dependents     limited
                                                                             dependents
 Account       No account      No account     No account      No account     Married        No open       Power of          All accounts
 Features      issues (open    issues (open   issues (open    issues (open   once; no       account       Attorney;         not included
               or closed)      or closed)     or closed)      or closed)     open account   issues        Centralized       in previous
                                                                             issues                       Authorization     Releases
                                                                                                               2
                                                                                                          File; no open
                                                                                                          account issues
 Delivery      August 2004     July 2005      January 2006    September      March 2007     To Be         To Be             To Be
  Date                                                        2006                          Determined    Determined        Determined

Source: CADE Release Content Master Plan, dated October 18, 2005.


 1
   EIN - Employer Identification Number.
 2
   The Centralized Authorization File contains information about the types of authorizations taxpayers have given
 their representatives for their tax returns.
                                                                                                                            Page 15
                       The Customer Account Data Engine Release 2.1
                     Generally Posted Tax Return Information Accurately



Table Legend
Form 720 – Quarterly Federal Excise Tax Return
Form 940 – Employer’s Annual Federal Unemployment (FUTA) Tax Return
Form 941 – Employer’s QUARTERLY Federal Tax Return
Form 1040 – U.S. Individual Income Tax Return
Form 1040A – U.S. Individual Income Tax Return
Form 1040EZ – Income Tax Return for Single and Joint Filers With No Dependents
Schedule A – Itemized Deductions
Schedule B – Interest and Ordinary Dividends
Schedule C – Profit or Loss From Business
Schedule D – Capital Gains and Losses
Schedule E – Supplemental Income and Loss
Schedule F – Profit or Loss From Farming
Schedule R – Credit for the Elderly or the Disabled
Schedule SE – Self-Employment Tax
Schedule 1 – Interest and Ordinary Dividends for Form 1040A Filers
Schedule 2 – Child and Dependent Care Expenses for Form 1040A Filers
Schedule 3 – Credit for the Elderly or the Disabled for Form 1040A Filers




                                                                                 Page 16
